     AUDIT OF THE NEW YORK
          WORK ALLIANCE
 H-1B TECHNICAL SKILLS TRAINING
   GRANT NUMBER AH-10854-00-60
AUGUST 1, 2000 THROUGH JUNE 30, 2001




                      U.S. DEPARTMENT OF LABOR
                      OFFICE OF INSPECTOR GENERAL

                      REPORT NO.: 02-02-211-03-390
                      DATE:       September 30, 2002
                                            TABLE OF CONTENTS



ACRONYMS ....................................................................................................................................i

EXECUTIVE SUMMARY ............................................................................................................1

INTRODUCTION ..........................................................................................................................3

          BACKGROUND .................................................................................................................3

          AUDIT OBJECTIVES .........................................................................................................4

          AUDIT SCOPE AND METHODOLOGY..........................................................................4

FINDINGS AND RECOMMENDATIONS

          I.         PROGRAM IMPLEMENTATION .........................................................................6

          II.        PROGRAM OUTCOMES .....................................................................................10

          III.       REPORTED OUTLAYS .......................................................................................11

          IV.        OTHER MATTERS ...............................................................................................17

APPENDIX

          THE NY WORK ALLIANCE’S RESPONSE TO DRAFT REPORT .............................18
                        ACRONYMS


ACWIA   American Competitiveness and Workforce Improvement Act


CY      Calendar Year


CFR     Code of Federal Regulations


CUNY    City University of New York


FSR     Financial Status Report


IT      Information Technology


JTPA    Job Training Partnership Act


NYSIA   New York Software Industry Association


OMB     Office of Management and Budget


TAP     Tuition Assistance Program


USDOL   U.S. Department of Labor


WIA     Workforce Investment Act




                                  - i-
                             EXECUTIVE SUMMARY


The U.S. Department of Labor (USDOL), Office of Inspector General, conducted an audit of the
New York Work Alliance’s (Work Alliance) H-1B technical skills training grant for the interim
period August 1, 2000 through June 30, 2001. The overall audit objective was to evaluate if the
Work Alliance was meeting the intent of the H-1B Technical Skills Training Program and the
requirements of its grant. The subobjectives were to determine if:

       •   The project had been implemented as stated in the grant.

       •   Program outcomes were measured, achieved, and reported.

       •   Reported costs were reasonable, allocable, and allowable in accordance with
           applicable Federal regulations, and Office of Management and Budget (OMB)
           Circular A-122, Cost Principles for Non-Profit Organizations.

The H-1B Technical Skills Training Program was designed to help U.S. workers acquire the
technical skills for occupations that are in demand and being filled by foreign workers holding
H-1B visas. USDOL awarded the Work Alliance $2,940,162, for the period August 1, 2000
through July 31, 2002, to train 300 participants in information technology (IT) to meet demands
for skilled workers in the Internet and DOT.COM industries.

AUDIT RESULTS

As of June 30, 2001, the Work Alliance had not been successful in meeting the intent of the
H-1B Technical Skills Training program and the requirements of its grant. Most areas of the
project were affected when demand for skilled workers in the Internet and DOT.COM industries
declined significantly in Calendar Years (CYs) 2000 and 2001. Due to changes in the economy,
the Work Alliance started to refocus the project by recruiting employers in other industries that
needed trained IT workers. Nevertheless, the Work Alliance had not met essent ial grant
requirements and the grant ending date is July 31, 2002.

       •   The Work Alliance proposed and agreed to implement a project with three training
           tracks: web design and administration, employer-specific classroom training, and
           internships. Only one track was implemented, web design and administration.
           Employer-specific classroom training and internships had not yet been implemented.
           Additionally, as implemented, the project will not be sustainable after the grant
           expires.

       •   The Work Alliance had not accomplished or accurately measured and reported
           program outcomes as stated in the grant. Training required by the grant was provided
           to only 40 percent of the participants (120 out of 300 participants). Placement
           outcomes were negligible with only two reported. Without related placements, the
           project does not meet the intent of ACWIA technical skills training that participants


                                              -1-
           be trained and placed in highly skilled H-1B occupations. The Work Alliance has a
           pending grant modification request to extend the grant period through
           January 31, 2003, to accomplish placements and upgrades.

       •   We question $231,675, or 18 percent of Federal outlays, because these costs were not
           reasonable, allocable, or allowable. Further, the matching requirement of 25 percent
           was not being met as of June 30, 2001. Future costs may have to be questioned if the
           matching requirement is not met.

THE WORK ALLIANCE’S RESPONSE

In a response to our draft report, the President and Chief Operating Officer of the Work
Alliance stated that he did not agree with the major conclusions of our report. He stated
that the Work Alliance has continually sought to improve the program consistent with the
intent of the grant solicitation, changing circumstances and feedback received from
USDOL.

OIG’S COMMENTS

Based on information submitted in response to the draft report, we have resolved classroom
training costs of $64,800 that we had originally questioned. However, we have not changed our
overall conclusion that as of June 30, 2001, the Work Alliance had not been successful in
meeting the intent of the H-1B Technical Skills Training program and the requirements of the
grant. Achieving placement outcomes is essential to the success of an H-1B Technical Skills
Training program and, as of June 30, 2001, the Work Alliance had achieved only two placements
and had not yet implemented two of three training tracks.

Excerpts of the Work Alliance’s response to the draft report have been incorporated into
appropriate sections of the report. The response is included in its entirety as an Appendix.

RECOMMENDATIONS

We recommend the Assistant Secretary for Employment and Training recover questioned costs
of $231,675 and ensure that the Work Alliance operates the project in accordance with the intent
and requirements of its grant.

.




                                               -2-
                                            INTRODUCTION


                  The American Competitiveness and Workforce Improvement Act of 1998
BACKGROUND        (ACWIA) was enacted to help employed and unemployed U.S. workers
                  acquire technical skills for occupations that are in demand and being filled by
H-1B visa holders. The H-1B visa program allows employers to temporarily employ foreign
workers on a nonimmigrant basis to work in specialized jobs not filled by U.S. workers (8 U.S.C.
1101(a)(15)(H)(i)(b)). A $1,000 user fee is imposed on employers for H-1B applications.
ACWIA provides that over half of that fee be used to finance the H-1B Technical Skills Training
Program administered by USDOL.

H-1B technical skills training grants are demonstration grants awarded under the authority of
Title IV-D of the Job Training Partnership Act (JTPA) and Title I-D of the Workforce
Investment Act (WIA). As of December 31, 2001, USDOL conducted 4 rounds of grant
competition and awarded 52 grants totaling approximately $120 million.

                         Grant         Solicitation           Number             Award
                         Round             Date              of Grants          Amount
                           1         August 16, 1999              9            $12,383,995
                           2         March 29, 2000              12            $29,166,757
                           3         August 1, 2000              22            $54,000,000
                           4         April 13, 2001               9            $24,394,8011
                                          Totals                 52           $119,945,553

In the second round, the Work Alliance was awarded $2,940,162 under Grant Number
AH-10854-00-60 for the period August 1, 2000 through July 31, 2002. The Work Alliance
proposed and agreed to train 300 participants in IT to meet demands for skilled workers in the
Internet and DOT.COM industries. The Work Alliance administered the project and partnered
with City University of New York (CUNY) and New York Software Industry Association
(NYSIA). CUNY was to provide classroom training in web design and web administration, and
other IT training designed specifically to meet individual employers’ needs. NYSIA was to
develop internships and placement opportunities in the Internet and DOT.COM industries.

The Work Alliance, formerly known as the Private Industry Council for the City of New York,
was incorporated in 1979, as a not- for-profit corporation under section 501(c)(3) of the Internal
Revenue Code. Under WIA, the Work Alliance develops and operates demonstration projects,
but does not establish workforce developme nt policy as it had under JTPA.




1
    As of December 31, 2001, Round 4 was still an open solicitation with an additional $111 million available.
                                                         -3-
                         The overall audit objective was to evaluate if the Work Alliance was
 AUDIT OBJECTIVES        meeting the intent of the H-1B Technical Skills Training Program and
                         the requirements of its grant. The subobjectives were to determine if:

       •   The project had been implemented as stated in the grant.

       •   Program outcomes were measured, achieved and reported.

       •   Reported costs were reasonable, allocable and allowable in accordance with
           applicable Federal regulations, and OMB Circular A-122, Cost Principles for
           Non-Profit Organizations.

                         The audit period was from August 1, 2000 through
 AUDIT SCOPE AND         June 30, 2001. In performing this audit, we reviewed the Solicitation
  M ETHODOLOGY           for Grant Applications and the grant agreement to determine the
                         requirements and performance measures of the grant. We interviewed
staff at the Work Alliance, examined participant records, and reviewed other materials related to
project implementation. We made an onsite visit to CUNY to observe training in progress.

We audited cumulative net outlays of $1,417,141, consisting of the Federal share of $1,265,693
and third party in-kind contributions of $151,448, claimed on the Financial Status Report (FSR),
for the period ending June 30, 2001. We traced expenditures to general ledgers and examined
supporting documentation including vouchers and invoices. Judgmental sampling was used to
test individual account transactions and balances. We tested outlays of $831,450 or 66 percent
of reported Federal outlays.

We considered the Work Alliance’s internal controls over the H-1B grant project by obtaining an
understanding of the grantee’s internal controls, determining whether these internal controls had
been placed in operation, assessing control risk, and performing tests of controls. Our purpose
was to determine the nature and extent of testing needed to satisfy our audit objectives, not to
provide assurances on the internal controls; therefore, we do not provide any such assurances.

Compliance with laws, regulations, and grant agreement provisions is the responsibility of the
Work Alliance. We performed tests of compliance with certain provisions of laws, regulations,
and the grant to evaluate if the Work Alliance was meeting the requirements of the grant and that
reported costs were reasonable, allocable, and allowable in accordance with applicable
provisions of Federal regulations and OMB circulars. We examined compliance with grant
requirements and program outcome goals using the Solicitation for Grant Applications and the
grant agreement. We evaluated allowability of claimed costs using relevant criteria including:
ACWIA; 29 CFR 95, Grants and Agreements with Institutions of Higher Education, Hospitals,
and Other Non-Profit Organizations; OMB Circular A-122, Cost Principles for Non-Profit
Organizations; and the requirements of the grant. We also used OMB Circular A-21, Cost
Principles for Educational Institutions, to evaluate third party in-kind contributions by CUNY.
However, our objective was not to provide an opinion on overall compliance with Federal
regulations and OMB circulars, and, accordingly, we do not express such an opinion.




                                              -4-
We conducted our audit in accordance with Government Auditing Standards, issued by the
Comptroller General of the United States, and included such tests as we considered necessary to
satisfy the objectives of the audit. We conducted fieldwork from August 28, 2001 through
October 31, 2001, at the Work Alliance located in New York, New York. We visited CUNY
training facilities in New York City on August 29, 2001. We conducted an exit conference with
the Work Alliance on May 29, 2002.




                                              -5-
                  FINDINGS AND RECOMMENDATIONS


I.     PROGRAM IMPLEMENTATION

The Solicitation for Grant Applications states:

      “The primary emphasis of the ACWIA technical skills training will be to focus on
       employed and unemployed workers who can be trained and placed directly in the
       highly skilled H-1B occupations. . . .

      “Although the primary focus of these awards is technical skill training, ETA
       intends that regional partnerships sustain themselves over the long term – well
       after the federal resources from this initiative have been exhausted.”

As of June 30, 2001, the Work Alliance had implemented only one of the three training tracks
that it had proposed and agreed to in the grant. Additionally, as implemented, the project will
not be sustainable after the grant expires.

The project was affected when demand for skilled IT workers in the Internet and DOT.COM
industries significantly declined in CYs 2000 and 2001. Internships, employer-specific training,
and placement opportunities did not materialize. Due to changes in the economy, the Work
Alliance started to refocus the project by recruiting employers in other industries that needed
trained IT workers. Nevertheless, the Work Alliance had not met the intent of the H-1B
Technical Skills Training program and essential grant requirements.

                          Under the terms of the grant, the Work Alliance proposed and agreed
 TRAINING PROVIDED        to implement a project with three training tracks:

       1. Classroom training in web design and administration.

       2. Classroom training in employer-specified IT skills for its workers.

       3. Internships in IT for two, 6- month periods.

The Work Alliance implemented one training track by providing classes in web design and
administration. The Work Alliance was still developing employer-specific classroom training
and internships, the other two training tracks.




                                                  -6-
Web Design and Administration Classroom Training

The Work Alliance developed four courses to train participants in web design and administration
skills. The courses were to be taken in sequence and provided by CUNY.

        1.   Introductory Level Skills (course A)
        2.   Basic Web Design (course B1)
        3.   Advanced Web Design (course B2)
        4.   Web Administration (course C)

By the end of August 2001, the web design and administration classroom training was fully
implemented. Further, the grant required the Work Alliance to emphasize minorities in
recruiting participants for the project and as of June 30, 2001, minorities comprised 73 percent 2
of participants accepted into this training.

Employer-Specific Classroom Training

The Work Alliance had not implemented the employer-specific classroom training because
employers that initially committed to training ended up reducing operations or went out of
business. In order to meet training outcome goals, the Work Alliance attempted to recruit
additional employers with similar training needs. As of June 30, 2001, the Work Alliance was
still recruiting employers and coordinating schedules.

Some new employers were recruited, but these employers have significantly fewer IT employees
than Internet and DOT.COM employers. The Work Alliance recognized that it will have to
combine employers with workers needing similar training in order to make the training cost
effective. Schedules will have to be coordinated among employers and with CUNY so that
workers will be available when CUNY facilities and instructors are also available.

In its response to the draft report, the President of the Work Alliance stated that at the time of the
audit it had not implemented Category II (employer specific training). He further stated that the
Work Alliance did complete a survey of employer IT demands, conducted outreach to businesses
for involvement in Category II, and began Category II training in October 2001, partnering with
Associated Press.

Internships

The Work Alliance had not implemented any internship training. With the grant ending in
July 2002, the Work Alliance will not be able to meet grant requirements that participants be
engaged in internships for two, 6- month periods or a minimum of 12 months of training.

The Work Alliance contracted with NYSIA to arrange for internships and placements with IT
employers, but NYSIA had not been successful in these matters. The Work Alliance indicated
that the contract with NYSIA would be terminated. The Work Alliance also indicated that it
would work through Industry Specific Advisory Committees to develop internship opportunities,
and focus on IT jobs with non-IT employers.

2
 Represents 70 minority participants out of 96 participants who responded to the ethnic origin question on the
CUNY survey.
                                                       -7-
In its response, the President of theWork Alliance stated that he realized internships were not
feasible and sought to address this through increased direct placement services. He stated that
the level of skills obtained by program participants combined with the increased direct placement
efforts did result in opportunities for participants to engage in freelance or consultant work in IT
areas.

Internships, the third training track, has still not been implemented and the grant agreement has
not been modified to eliminate it from the scope of work.

                       The grant relied upon continued participation of project partners CUNY
     PROJECT           and NYSIA to sustain the project after the grant period. The grant
 SUSTAINABILITY        agreement states:

      “CUNY . . . is committed to developing training programs . . . that can be sustained
       by the university . . .

      “NYSIA will work with the partners, its member organizations and other local
       entities to seek out the resources that will ensure the project’s sustainability
       beyond the grant period.”

However, as implemented, the project will not be sustainable after the grant ends. The training
phase of the grant has not resulted in placements. Moreover, relationships with participating
partners cannot continue without additional funding.

Partnership With CUNY for Classroom Training

Classroom training may continue after the grant ends, but only if both the Work Alliance and
CUNY are involved. The Work Alliance owns the proprietary rights to the training materials
and CUNY has the instructors, space and equipment resources to provide the training. However,
additional funding sources are needed in order to provide training.

Student financial aid, particularly Pell grants and New York State’s Tuition Assistance Program
(TAP), may defray training costs, but only for students who qualify for the aid. Pell grants and
TAP are not available for persons with bachelor degrees or higher, which would have excluded
42 percent of the 120 participants trained under the grant. Also, students would have to carry a
minimum number of credits to receive TAP aid.

In his response, the President of the Work Alliance indicated that he believes the program could
be sustained and expanded upon to meet skill needs. He stated that the Work Alliance was
seeking other funding, additional classroom training and other sources of support for trainees.
He further stated that, as an eligible training provider, the Workplace is currently offering
training developed for this program through vouchers available through the New York City’s
One-Stop system.

The Work Alliance’s response does not address the continuation of its partnership with CUNY.
Further, using training vouchers would not be an effective way to sustain training after the grant.
WIA participants have access to outcome information to make informed choices in selecting a

                                               -8-
training program. Because each participant makes his/her own choice, training vouchers would
not necessarily sustain a customized training program such as the Work Alliance’s employer-
specific training. Moreover, while the web design and administration is a standardized training
program, it has had negligible employment outcomes and participants are more likely to select a
different program with better results.

Partnership With NYSIA for Internships and Placement Opportunities

The Work Alliance was terminating the contractual relationship with NYSIA, assuming its role
in developing participant internship and placement opportunities. However, this role will be
difficult to maintain after the grant ends because the Work Alliance operates outside of the WIA
One-Stop system and therefore does not receive WIA training and job development funding.

The President of the Work Alliance responded to our draft report by stating that the Alliance is a
partner in New York City’s One-Stop system and, as a designated Workforce1 Center, the
Alliance provides a range of services for WIA eligible populations. He further stated that the
Alliance will continue to rely on trade associations, like NYSIA, to provide information on
industry skill demand and access to employers.

The Work Alliance is a training provider for the One-Stop system, but is not a full service One-
Stop center. The Work Alliance is not designated as a Workforce1 Center on the New York
City’s web pages.

RECOMMENDATIONS

We recommend the Assistant Secretary for Employment and Training ensures that the Work
Alliance conforms to the grant’s requirements and:

       − implements internships; and

       − improves project sustainability.




                                               -9-
II.    PROGRAM OUTCOMES

The Work Alliance, for the most part, did not accomplish or accurately report program
outcomes. For web design and administration, training outcomes were achieved and workers
skill levels were raised. However, related placement outcomes were negligible. Neither training
nor placement outcomes were achieved for employer-specific classroom training or internships.
The Work Alliance measured training and placements as required under the grant, plus additional
measures designed for overall program management. However, outcomes were not accurately
reported to USDOL.

                                 The grant established the following projected program
 O UTCOME ACHIEVEMENT            outcomes.

                                 Projected         Actual       Projected           Actual
Training Type                   Participants     Participants Placement or       Placements
                                  Trained          Trained      Upgrade          or Upgrades

Classroom Training:
  Web Design/Administration          160                120         100                  2
  Employer-Specific                  140                  0         120                  0
Internships                           75                  0     Not specified            0

For web design and administration, we identified 120 training outcomes, or 75 percent of the
grant projected outcomes, as of June 30, 2001. Although The Work Alliance reported two
placements for web design and administration, we were unable to verify these placements.
Moreover, the Work Alliance had not implemented the employer-specific classroom training or
internships. As a result, neither training nor placement outcomes were achieved for these
training activities. Without related placements, the project does not meet the intent of ACWIA
technical skills training that participants be trained and placed in highly skilled H-1B
occupations.

In its response, the Work Alliance provided updated outcome data through August 7, 2002, for
participants in web design and administration (Category I) and employer-specific (Category II)
classroom training. The response stated that the Alliance has verified that 331 individuals have
participated in Category I training, with 277 positive completions recorded. For Category II
participation, the Alliance reported it has verified 245 participants enrolled in skills upgrade
training. The Alliance also report that this training has resulted in 105 employer upgrades, but
that placement activities have not been as successful, resulting in 7 verified placements.

Based on unaudited outcome information provided in the Work Alliance’s response to our draft
report, the Work Alliance still has not achieved employment outcomes as established in the
grant. Updated placement or upgrade outcomes are significantly higher for employer-specific
training with 105 reported upgrades, 88 percent (105 of 120 participants) of grant goals.
However, employment outcomes for web design and administration have marginally improved
with only 7 reported placements, 7 percent (7 of 100 participants) of grant goals.




                                               - 10 -
 M EASUREMENT        The grant required that the Work Alliance submit quarterly progress
 AND R EPORTS
                     reports on project performance. 29 CFR 95.51(d)(1) states that
                     performance reports should contain: “A comparison of actual
accomplishments with the goals and objectives established for the period . . . ”

The Work Alliance included the required program outcomes in quarterly narrative reports, but
understated training outcomes and claimed placements that could not be verified. As of
June 30, 2001, we identified 120 training outcomes for web design and administration, whereas
the Work Alliance claimed 80 training outcomes in the body of the Narrative Quarterly Progress
Report and 103 training outcomes in the report’s attachment. For the same quarter, the Work
Alliance claimed two placements that were not supported in participant records. Inconsistent and
unsupported reporting occurred because the Work Alliance prepared progress reports from
manual counts of participant files and training rosters. The manual method was to be used until a
system could be developed that would provide more complete and accurate program outcomes.

In its response, the Work Alliance asserted that it had addressed the concerns raised on
inconsistent reports, but did not explain the measures it had taken. Therefore, the grant’s
requirements for program outcome measurement and reporting have not been met.

RECOMMENDATIONS

We recommend the Assistant Secretary for Employment and Training ensures that the Work
Alliance implements improvements in the program that will achieve placement outcomes and
accurately measure and report outcomes.

III.   REPORTED OUTLAYS

The Work Alliance claimed cumulative net outlays of $1,417,141, consisting of the Federal share
of $1,265,693 and third party in-kind contributions of $151,448 on the FSR for the period ending
June 30, 2001. These outlays include payments of $231,675 to program partners that were not
reasonable, allocable, or allowable. As a result, we question $231,675 or 18 percent of the
Federal outlays as shown below.

                          Program Partner           Questioned Costs

                                CUNY                     $224,075
                                NYSIA                       7,600

                                 Total                   $231,675

As of June 30, 2001, the matching requirement of 25 percent had not been met. Future costs
may have to be questioned if the matching requirement is not satisfied.




                                               - 11 -
CUNY – $224,075       OMB Circular A-122, Attachment A, Paragraph A.3 and 2g states:

      “A cost is reasonable if, in its nature or amount, it does not exceed that which
       would be incurred by a prudent person under the circumstances prevailing at the
       time the decision was made to incur the costs.

      “Factors affecting allowability of costs. To be allowable under an award, costs
       must meet the following criteria . . . Be adequately documented.”

We question $224,075 the Work Alliance paid to CUNY for curriculum development ($154,075)
and database development ($70,000) outlays. As detailed below, the outlays were not reasonable
or documented.

Curriculum Development – $154,075

The Work Alliance contracted with CUNY to develop curriculum for web design and
administration, and in employer-specific IT skills. However, the Work Alliance did not justify
the need for curriculum development when similar training was available at CUNY.

The Work Alliance responded:

       Curriculum development was essential, as no comparable high- level program,
       directly responsive to employer need, existed at CUNY. The curriculum
       developed through this grant is unique both in its attention to employer need and
       its accessibility for students with high potential but limited academic experience.

However, the Work Alliance’s response did not provide substantive reasons for incurring
curriculum development costs of $154,075. We found CUNY offers similar training through its
continuing education department using the same texts and instructors as the web design and
administration training. The response was not specific as to how the training actually differed
from existing curricula, texts and reference materials utilized by CUNY. Further, the response
did not specify what needed to be developed for the training or address the reasonableness of
costs budgeted for the effort.

Database Development and Program Evaluation – $70,000

CUNY submitted two invoices totaling $70,000 based on budget estimates.

                       Voucher Number                   Total

                              30044                    $50,000
                              30045                     20,000

                                                       $70,000



                                              - 12 -
As shown below, these invoices were not sufficiently supported to determine if the costs were
reasonable, allowable, and allocable.

   •   Personnel costs of $57,137 were not sufficiently documented to determine if costs were
       reasonable for staff function, hours worked and pay rates charged.

   •   Local travel and consultant costs claimed did not contain sufficient information to
       determine allowability of costs. Local travel was not supported with information on the
       purpose of the travel to determine if the travel was necessary and reasonable.
       Documentation for consultant costs were not specific enough to determine if costs
       exceeded the $450 daily limit imposed by the grant and services performed were
       necessary and reasonable under the grant.

The Work Alliance provided additional documentation and responded:

       Documentation fully supports the database development costs. Through
       June 30, 2002, we have expenditures . . . of $129,958.45. We have reimbursed . . .
       only $110,000 to date.

The submitted documentation did not provide any additional detail on the vouchers to address
the issues above. Moreover, the schedule that the Work Alliance provided in the response for
CUNY costs indicates the voucher payments were not reasonable. As of June 30, 2001, the
schedule identifies only $5,515 of costs incurred by CUNY, whereas the Work Alliance paid
$70,000 for the two vouchers.




                                             - 13 -
NYSIA –- $7,600        OMB Circular A-122, Attachment A, Section A.2b states:

         Factors affecting allowability of costs. To be allowable under an award, costs
         must . . . Conform to any limitations or exclusions set forth in . . . the award as
         to types or amount of cost items.

Special Clause Number 6 of the grant requires: “Consultant fees paid under this grant/agreement
shall be limited to $450 per day without additional DOL Grant Officer approval.”

We question NYSIA consultant fees of $7,600 because such fees were for unnecessary
curriculum development meetings ($1,000) and consultant fees exceeded daily grant limits
($6,600). NYSIA provided 21 days of consulting services to the project and charged $16,000 in
fees for participating in meetings and discussions, recruitment interviews, student training
sessions, workshops, and orientation.

   •   Consultant fees of $1,000 were charged for participating in curriculum development
       meetings for CUNY classroom training. Curriculum development was not necessary
       because CUNY offered similar training to other students, at a lesser price. As a result,
       consultant fees of $1,000 for participating in 2 days of curriculum development meetings
       were not necessary.

   •   Consultant fees of $15,000 were charged for overall program design. Daily consultant
       fees ranged from $375 to $1,750 with only 2 days charged under the $450 daily grant
       limit. As a result, $6,600 in consultant fees was charged in excess of daily grant limits.

In its response, the Work Alliance acknowledged error in calculating consultant fees and
indicated that it was not challenging the findings with respect to NYSIA.


 M ATCHING R EQUIREMENT          29 CFR 95.23(a) and (b) require:

       “(a) All contributions, including cash and third party in-kind, shall be accepted
            as part of the recipient’s cost sharing or matching when such contributions
            meet all of the following criteria:

             (1) Are verifiable from the recipient’s records.
             (2) Are not included as contributions for any other Federally-assisted project
                 or program. . . .

        (b) Unrecovered indirect costs maybe included as part of cost sharing or
            matching only with prior written approval of the grant officer.”

The grant established a matching requirement of 25 percent on Federal outlays. However, the
matching requirement had not been met as of June 30, 2001. The Work Alliance reported
cumulative in-kind costs of $151,448 or 12 percent of the $1,265,393 cumulative outlays
reported on the FSR for June 30, 2001. Moreover, the matching costs claimed did not comply
with 29 CFR 95.23 requirements. The 25 percent requirement must be satisfied by the end of the

                                               - 14 -
grant period. Future grant costs may have to be questioned if the matching requirement is not
satisfied.

In its response, the Work Alliance indicated it made changes in identifying and quantifying
matching costs. The Work Alliance described two additional sources of matching costs to be
used in future reporting: additional CUNY classes given to program participants at a cost of
$302,400 and participant salaries during employer-specific training valued at $200,000.

To claim matching costs from the additional sources described in its response, the Work Alliance
will need to be able to demonstrate that the amounts charged for CUNY classes represent actual
costs not funded by Federal resources, and that the amounts claimed for participant salaries were
paid by employers while participants attended training.

CUNY Classes With More Than 18 Students

The Work Alliance claimed matching costs of $50,400 (12 students at $2,100 per student) for
CUNY classes containing more than 18 students. The Work Alliance paid a fixed price for
training 18 participants in a class, and when classes exceeded 18 participants, the additional
students trained would be considered in-kind contributions by CUNY. However, the rate used to
calculate the matching costs does not reflect the actual costs of providing training to the
additional students.

       •   The rate was not based on the actual incremental costs of providing training. Most
           costs, such as instructor salaries and facilities, would have been covered by the fixed
           price paid for the class. The incremental costs would be nominal items such as
           additional duplicating charges and participant supplies.

       •   The $2,100 per student rate was also used for the contract price and was determined
           excessive since CUNY offered similar training to other students at a lesser price.

The Work Alliance agreed that the amount charged for matching costs should be the incremental
cost of providing the training. In future FSR reporting, the Work Alliance indicated that it would
replace amounts claimed for these CUNY classes with other matching costs.

Participant Use of CUNY Library and Labs

The Work Alliance claimed matching costs of $32,850 for CUNY library and computer labs
used in conjunction with classroom training. OMB Circular A-21 classifies the library and labs
as “Facilities and Administration” which are indirect costs. The Work Alliance did not have
prior grant officer approval for these indirect costs, which were also not verifiable from the Work
Alliance records. Library and computer lab facilities were offered to other CUNY students
without additional charge.

The Work Alliance concurred and indicated that it would replace amounts claimed for CUNY
library and labs with other matching costs in future FSR reporting.




                                              - 15 -
Unrecovered CUNY Indirect Costs

The Work Alliance claimed matching costs of $68,198 for CUNY indirect costs in excess of the
15 percent rate provided for under the database development and program analysis contract. The
Work Alliance reported that CUNY had an approved indirect cost rate of 50 percent and claimed
the difference between that rate and the contract rate of 15 percent as in-kind contributions for
unrecovered CUNY indirect costs.

However, these costs do not comply with the requirements of 29 CFR 95.23(b) because the
Work Alliance did not have prior grant officer approval for the costs. Also, the costs do not
comply with the requirements of 29 CFR 95.23(a)(1) because the Work Alliance could not
document the claimed approved indirect cost rate.

The Work Alliance provided documentation of CUNY’s approved indirect cost rate and
indicated the grant officer verbally approved the use of the excess indirect costs as matching
costs. The Work Alliance expected to report in-kind costs of $455,000 for excess CUNY
indirect costs. However, to claim excess CUNY indirect costs, the Work Alliance will still need
to demonstrate that matching costs claimed were not funded by Federal resources.

RECOMMENDATION

We recommend the Assistant Secretary for Employment and Training recovers questioned costs
of $231,675 and ensures that the Work Alliance properly meets the grant requirements for
matching funds by the conclusion of the grant period.

IV.    OTHER MATTERS

                                    29 CFR 95.45 states:
 CONTRACTS WITH PARTNERS

       Some form of cost or price analysis shall be made and documented in the
       procurement files in connection with every procurement action. . . . Cost analysis
       is the review and evaluation of each element of cost to determine reasonableness,
       allocability and allowability.

The Work Alliance awarded four contracts totaling $1,509,000 to CUNY and NYSIA
without documentation of contract costs or price analyses.

In its response, the Work Alliance claimed exemption from procurement requirements because
the contractors were named in the grant application.

       Contractual procurement requirements do not apply here. This program was
       developed and proposed in concert with CUNY and NYSIA, both of who m
       offered unique contributions to the whole. We viewed the relationship as that of a
       mutual collaboration, for without their assistance this project could have not
       happened. They were named and included in the RFP response, not selected after
       the fact. Furthermore, the assertion that there was no analysis of costs is not true.
       In the original submission of our budget, costs had been broken down in much

                                              - 16 -
       more detail. It was only in an effort to ease the management of the overall
       program that we converted CUNY and NYSIA’s participation into contracted
       services.

Because CUNY and NYSIA were included in the grant application does not exempt the Work
Alliance from contractual procurement requirements. Special Clause Number 11 in the grant
agreement states:

      PROCUREMENT: Except as specifically provided, DOL/ETA acceptance of a
      proposal and an award of federal funds to sponsor any program(s) does not
      provide a waiver of any grant requirements and/or procedures. For example, the
      OMB circulars require an entity’s procurement procedures must require that all
      procurement transactions shall be conducted, as practical, to provide open and
      free competition. If a proposal identifies a specific entity to provide services, the
      DOL/ETA’s award does not provide the jus tification or basis to sole-source the
      procurement, i.e. avoid competition.

Further, the CUNY and NYSIA budgeted costs as represented in the Work Alliance’s grant
application significantly differed from budgeted costs in the CUNY and NYSIA contracts. For
example, the NYSIA placement function was $80,000 in the grant application, but the contract
awarded to NYSIA was for $137,500 with no explanation for the increase. The CUNY research
function was priced the same in the grant proposal and the contract, but the number of staff
changed from three per the grant application to six staff, plus consultants for the contract.




                                              - 17 -
